U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Buck Gene Brune v. United States of America
S.Ct. No. 21-273
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2021, and placed on the docket on August 25, 2021. The government’s response is due on
September 24, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 25, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0273
BRUNE, BUCK GENE
USA

CODY LEE COFER
COFER LUSTER LAW FIRM, PC
300 BURNETT STREET
STE. 130
FORT WORTH, TX 76102
682-777-3336
CCOFER@COFERLUSTER.COM
BRIAN J. NEWMAN
LAW OFFICE OF BRIAN J. NEWMAN
300 BURNETT ST.
#132
FORT WORTH, TX 76102
817-231-0023
817-503-7566(Fax)

